ORIGINAL
Supreme Court, U.S.
FILED

21-52

JAN 2 0 2021
OFFICE OF THE CLERK

THE UNITED STATES SUPREME COURT

In Re:

PETITIONER
MELVIN DINKINS
VS
RESPONDENT
NORMAN K MOON, DISTRICT JUDGE
ET AL.,
REGION TEN CSB

ON PETITION FOR WRIT OF MANDAMUS
TO THE U.S. DISTRICT COURT
WESTERN DIVISION OF VIRGINIA
PETITION FOR WRIT OF MANDAMUS

PRO SE ATTORNEY OF RECORD, MELVIN DINKINS
123 4th STREET N.W.
CHARLOTTESVILLE, VIRGINIA 22902
MR.7.DINKINS@GMAIL.COM

434-326-3266

IN QUESTION

28 USC1651
What are the "usages and principles" of law, in this case 28 USC 3730
(b)(1) - when legislature proclaims "A person may bring a civil action for
the person and for the United States Government" - and then
continues with obvious safeguards even against malfeasance? And is
further secured by Article VI 2nd paragraph of the U.S. Constitution?

Having exhausted all other remedies before this Petition, with five
cases and then an Appeal, subsequent to the original Federal Civil
Action 3:17-cv-00034, is the Relief requested appropriate for Supreme
Court consideration of all Real Parties in Interest?

How does Federal case 3:17-cv-00034 of Petitioner, cited against
judicial Order 5/19/2017 of Respondent, merit the Discretionary
Powers of this United States Supreme Court?

TABLE OF AUTHORITIES

42 USC 1983

31 USC 3729
31 USC 3730 (b)(1)

28 USC 1331
28 USC RULE 42 (a)(1) AND (b)

28 USC RULE 19 CIVIL PROCEDURE
28 USC RULE 17 CIVIL PROCEDURE
15 USC 1692 "FINDINGS AND DECLARATION"

-THE PARTIES TO THIS PETITION

Respondent:
District Court Judge Norman K Moon, Western Division of Virginia
Etah,
Region Ten Community Services Board Inc.

Petitioner:
Melvin Dinkins Pro Se Attorney of Record
EtaL,
The United States of America

DIRECTLY RELATED CASES
State Court
Albemarle County Circuit Court_ case#CL15000401-00
Virginia State Supreme Court_ case#160918
Federal Court
Western District of Virginia Federal Court
_ cases #3:16-cv-00003/
3:17-cv-00034, 3:17-cv-00055, 3:18-cv-00001, 3:18-cv-00Q42
3:19-cv-00030
Federal Appeal
4th Circuit Court of Appeals case#20-1274

State Immunity Originally Federal
1. Original discrepancies are with Billing in the Parties' contracted
account, on file Prima Facia, and in combination with charges against
"manipulated insurance payments", that initiated Breach of Contract in
State Court.

2. The form and tone of Petitioners' Civil Action was acknowledged by
the secondary Respondent Region Ten CSB as - sounds "in Tort" rather
than Breach of Contract — toward an exclusion of the potent charges, by
conceding Tort Causes of Action" on record and signed with State
Order. (Exhibit 1Y)

3. Further claims by Region Ten - for Sovereign Immunity, as part local
government and part corporate entity - eventually prompted State
Dismissal, although, only after the Respondent introduced and
admitted a "Mistake" during proceedings. (Exhibit 2Y & Exhibit E5)

4. Also before State Dismissal, "Perjury", citing a payment related claim
under Sworn Testimony, proven false and Judicially confirmed against
secondary Respondent, signified Federal level intrigue — toward
examining their admitted "Mistake" further - resulting in the Discovery
of "Up-Coding" against Medicare, and confirming "Original Jurisdiction"
with Federal Court. 28 USC 1331 (Exhibits X &Y and Exhibit E5)

5. Therefore with additional documented material corroborating the
nature of this action, an appropriate indication of the charges would
cite Fraudulent Misrepresentation directly against Pro Se Dinkins and
Fraudulent Misappropriation of the Petitioners' accounts, in a
sequential combination to induce Medicare Fraud against the U.S.

Conflict of Authority / The Case Under Petition
6. Legislated remedy against fraudulent claims, found in the United
States Code of law, directly addresses a Persons' rights regarding

specific matters, while instructing the parameters of Civil Action, citing
31 USC 3729 and 3730.

7. As attorney of record, Pro Se representation informed the Federal
Attorneys, and then filed in the Western District of Virginia Federal
Court, this information heretofore presented {under said 31 USC 3730),
compassed with circumstances involving the additional Parties (interest
holders of Medicare) in several transactions.

8. For Judicial review, Petitioners' case was brought to the Respondent,
District Judge Norman K Moon. And with incredible speed, the District
Judge Ruled that attorney of record Dinkins, with IFP status and as a
Pro Se Litigant, is not permitted to bring a qui tarn action on behalf of
the United States. Judge Moon then cited 4th Circuit case-references.
The Petitioners' 5/17/2017 Federal case, with Respondent' 5/19/2017
Judicial Order is submitted for consideration of a Writ, mandating the
enforcement of Federal law over case citations.

Separation of Powers / Meriting Consideration
9. Thus appealing to the United States Supreme Court jurisdictional
authority for a Writ, to uphold that integrity which distinguishes the
national powers of governance, supporting Federal law by Mandamus.
Distinctive powers, U.S. Constitutionally granted to separate branches
of government, specify - Article 1 first sentence - when indicating
Legislature, that all such powers are vested with Congress. Power that
creates the supreme law, Constitutionally, as stated in Article 6.

10. Executed in accordance with Federal law, including 28 USC Rule 17
Civil Procedure, Petitioners' U.S. District Court case 3:17-cv-00034 is
captioned "The United States vs Region Ten CSB".
In corroboration with the Federal charges composing Civil Action for
damages to Petitioners' accounts, business, and personal creditmultiple documents exhibiting "False Claims", "Up-Coding", and
"deliberate fraudulent Misappropriations", are all cited Prima Facia as

"Material Evidence" - printed from electronic (interstate) transactions
and activated for payment. As well, "Material Witnesses" are all from
the secondary Respondents' own employees.

11. Despite these factors and even without a Hearing, District Judge
Moon ignored clear Federal statute "A person may bring a civil action
for a violation of section 3729 for the person and for the United States
Government" against False Claims 31 USC 3730(b)(1) - instead, the
Respondent interposed two case references from Fourth Circuit
Appellate Court cited "a lay person may not..." &. "a Pm §e litigant may
not... " - collectively excluding the rights of individuals which do not
employ professional representation.

12. Together with a notation that repudiates Plaintiffs claim to have
brought action for himself, and, before any other "Real Party in
Interest" could be notified, the action was "Dismissed Without
Prejudice" - contrary to said Federal Saw citing "The action may be

dismissed only if the Court and the Attorney General give written
consent to the dismissal and their reasons for consenting" 31 USC
3730(b)(1).
The District Court Clerk, after the Petitioner allowed enough time,
confirmed that no U.S. Attorney General consent was given. Thereby,
Warranting the Discretionary Powers of this United States Supreme
Court.

Exceptional Circumstances
13. Whereby facts, with the explicit and direct proof to sustain charges
against any determinate subversion of Federal law - would include
malfeasance-the Petitioner will preempt such collateral damage, and
prompt this Court toward issuing a Writ of Mandamus, addressing the
Respondent's Order cited against Federal law 31 USC 3730 (b)(1).

Judiciary Act of 1789
Chapter 20 Section 1 (c) and (d)
14. The Supreme Court has power to issue, specifically, "Writs of
Mandamus in cases warranted by the principles and usages of law..."

15. It is therefore an obligation indentured upon this Court, recognizing
said Legislated Statute 31 USC 3730, to Mandate lawful Process of Civil
Action by Pro Se attorney of record Dinkins, the Petitioner, citing case
3:17-cv-00034 filed 5/2017 - 9/2020 in the Western District of Virginia
Federal Court, under Judicial Officer Norman K. Moon, Respondent.

16. The fact of that Judicial decision 5/2017 considered, yet aware of
what the law states, the Petitioner found that decisions "Without
Prejudice" allows content or whatever correction might be necessary,
to re-engage the action anew.

17. On several occasions, attorney of record Dinkins presented his case
(four additional filings - each dismissed) to the Court. But due to the
language and assertions by District Judge Moon - "to the extent
Relators' convoluted complaint asserts a person claim, it cannot be
deciphered by this Court" - the Petitioner submitted action only for
himself, while simply advising what requisite representation is
mandated for additional Real Parties in Interest, citing 28 USC Rule 19.

18. Those repeated dismissals (which only 3:17-cv-00055 is considered
appropriately discharged), continued to suppress this action until Pro
Se learned when filing the fourth case, that no Attorney General
consent was provided for the original Dismissal.

19. Representation of Federal Civil Action with Related Cases, is
brought in acknowledgment of Appellate Jurisdictional Authority held
by the United States Supreme Court.

8

Parties with Interest
20. The Pro Se Petitioner, is a recipient of Socia! Security Disability
benefits, yet uses neither medication nor counselors - through
personal request and doctor approval in 1990-91-although a
"representative payee" (fiduciary) is mandatory for the continued
distribution of benefits.

21. in an attempt to terminate continued public assistance, Pro Se
Dinkins has been establishing a business since 1992 — and disengaged
that attempt when leaving California, then re-engaged after a return to
hourly employment in Virginia — finding Self Employment possible
between 2015-2017.

22. Primary business, composes the catalyst for an exposition which
promotes specialized endeavors of multinational entities, by retailing
books & reports and similar material with memorabilia from regional,
continental, and global government organizations.

23. Petitioners' secondary business was still developing, retailing
indigenous merchandise, characteristic of the origins which specializes
in that product, including certain American Western wares.

24. The Primary Respondent, of course, is a Federal Judge in the
United States District Court, Western Division of Virginia,

the Honorable

Judge Norman K. Moon. Now a Senior Judge with the Federal Court.

25. The secondary Respondent Region Ten CSB, is corporation
registered with the Virginia State Corporation Commission, and, part
governmental entity. Region Ten is engaged in Mental Health recovery
and Substance Abuse rehabilitation Programs.

26. Aid structured by means of Region Ten, services the complete
range of clientele within that field of Health Care, over large "regions"
covering Virginia; and, is related with State facilities while associated or
partnered with hospitals and many other establishments.
10

27. Given the extraordinary influence & resources generated, as one of
forty-seven operations around the State, with subsidies through the
Virginia Department of Behavioral Health and Development Services the secondary Respondents' capacity to incur dubious incidents is
considerable - especially, when transacting Financial & Fiduciary
accounts, private Insurance, Medicare & Medicaid, and similar
monetary activities that directly target mentally unstable clients.

11

Conclusive Facts for Remedy
28. Conclusively, the Petitioners' Civil Action which is before this Court,
remains obstructed by the Respondents' Judicial Order, regarding cited
Federal law.
And indicating the alternative remedies filed vigilantly - arguments
that identify the nature of charges with definitive Federal statutes
cited 42 USC 1983, 15 USC 1692 "Findings and Declaration of Purpose",
and 28 USC Rule 19 Civil Procedure - against Damages that are
accumulating, other remedies have exhausted after Federal Appeal.

29. Information presented to Respondent Judge Moon, before the final
District Court Ruling 2/18/2020, is submitted for Supreme Court review
citing Federal Rule 59{e) Motion and Brief. Therein Petitioner specifies
"Material Facts" relayed with further "Material Evidence", that, directly
addresses prior Judicial Ruling 7/29/2019. Supreme Court Judicial
Notice of both Rulings, hereby cited evading 42 USC 1983, is requested.

12

Relief Sought
30. The currently displaced action for which a Mandamus is Petitioned,
and, the recently discharged action still abstaining certiorari with this
Court, are two cases — with the same Subject Matter, Parties, Exhibits,
and Witnesses — whereby the Petitioner, as "attorney of record" for
these cases, suggests consolidation. A Hearing through Summary
Judgment has already been introduced to both Respondents, cited with
28 USC Rule 42 of Civil Procedure.

31. Upholding the Process of SegaS action directed by Federal statute
31 USC 3730 (b)(1), with a Writ of Mandamus against cited Order in
case 3:17-cv-00034, is hereby requested of the U.S. Supreme Court, by
Petitioner Dinkins, to initiate solution on this matter concerning the
Respondent, District Judge Norman K Moon, et ai., Region Ten CSB.

13

32. Further, with said Mandate requiring Judicial recognition of Federal
statute, Supreme Court review is requested to evaluate the substance
and consistency of Petitioners' litigation - administered without
"failure to prosecute" despite Respondents' dismissal of multiple cases.
Whereby, this Court may consider the whole Civil Action, citing an
original {31 USC 3730) and subsequent (42 USC 1983/15 USC 1692
"Congressional Findings and Declaration"/28 USC Rule 19), directly
related cases.

33. A Motion by attorney of record Pro Se, the Petitioner, is already
, filed with the brief for conclusion of Process through Summary
Judgement, thus, only indisputable facts are authorized for Hearing,
and all Parties must enjoin the Material Facts, Material Evidence, and
Material Witnesses prescribed for stated charges.

14

34. As such, the Relief Sought in this Petition involves a Hearing, or an
contiguous Judicial Proceeding, whereas the Supreme Court may decide
with an Order for Briefs, to consider among documented Material and
Federal law, to Grant a Writ for:

(A) Mandamus correcting the disposition of "unlawfully" discharged
Civil Action, with considerations for all Real Parties in Interest, through
a Summary Judgement.
(B) In the alternative, this Court may find it appropriate to conduct a
Hearing or otherwise conclude proceedings on its' own.

35. The matter 20-1274 leaving 4th Circuit Federal Court, for Certiorari
review by this U.S. Supreme Court (prior to time complications Exhibit
CLK), must already be reviewed for the Writ of Mandamus as a directly
related case, and is identified in this document.
Hereby presented, and relayed to all Parties, related case from District
Court 3:19-cv-00030 and Federal Appellate 20-1274 will not continue
15

with certiorari in this Supreme Court, thereby as "attorney of record"
Dinkins, the Petitioner inducts Judicial review of this action as filed,
while eliminating further unnecessary loss of time and expense.

36. Indicating the contested decision of Respondent District Judge
Norman K. Moon, to be - ascribing to the Appellate Court Ruling, rather
than administering his own resolution firmly compatible with legislated
statute, knowing the SUPREMACY OF FEDERAL LAW - especially one
that is clear and explicit enough for there to be no question, Pro Se
subsequent actions may be authorize to convoke eminent results.

7/2-V /2021

MELVIN DINKINS, PROSE
123 4TH STREET N.W.
CHARLOTTESVILLE, VA 22902
434-326-3266
MR.7.DINKINS@GMAIL.COM
16

APPENDIX

1.0 STATE CIVIL ACTION
Albemarle Circuit Court
Virginia Supreme Court
2.0 FEDERAL CIVIL ACTION
U.S. District Court, Western Division of Virginia
4th Circuit Federal Court of Appeals
EXHIBITS
(Taken from the final District Court Case 3:19-cv-00030)

INDEX TO APPENDIX
1.0 State Circuit Court

1.1 Case_CL 15000401-00
Manuscripts Listing; Complaint; Leave to Amend Bill and Motion
(Bill in Equity & Motion for Judgment); Judicial Order; Defendant
Response; Defendant Memorandum; Notice to Remand; Judicial
Order
1.0 State Supreme Court

1.1 Case_160918
Bill of Particulars; Court Ruling

INDEX TO APPENDIX CONTINUED
2.0 Western District of Virginia Federal Court
2.1 Case 3:16-cv-00003
Complaint; Federal Question Removal; Judicial Order
2.2 Case 317-CV-00034
(CASE UNDER PETITION)
Complaint; Motion to Seal; IFP Application; Civil Cover; Judicial
Order
2.3 Case_3;17-cv-00055
Civil Cover; Complaint; Judicial Order
2.4 Case_318-cv-00001
IFP, Complaint; Judicial Ruling; Rule 60 Motion; Judicial Order
2.5 Case_3:18-cv-00042
Complaint; Judicial Order; Objection; Rule 60 Motion & Brief;
Judicial Order
2.6 Case_3:19-cv-00030
Complaint; Summary Motion & Brief; Motion to Amend Service
& Complaint; Judicial Ruling 7/29/2019 (second page missing) &
Order; Rule 59(e) Motion & Brief (both Amended); Rule 60
Motion & Brief; Judicial Order 2/18/2020; Notice of Appeal
2.0 4th Circuit Federal Appellate Court
2.1 Case_20-1274
Informal Appellate Brief; Defendant Response Brief; Notice of
Judgement (upholding District Court); Rehearing Petition; Court
Denial of Rehearing; 4th Circuit Mandate Oct. 5, 2020
EXHIBITS, A, B, C, D, E5, F, X, Y, Y6, // Yl, Y2, Y3, Y78, Y80

I, Melvin Dinkins Pro Se, and representing as the "attorney of record"
with related cases, do certify that copies of this Petition and attached
documents are appropriately provided to all Parties named herein, on
this

/A

day of July 2021.

Respondent(s):

U.S. Representatives:

Norman K. Moon, District Judge
P.O. Box 657
Lynchburg, VA 24505

Jeffrey A. Rosen, Fed. AG
U.S. Dept, of Justice
950 Pennsylvania Ave N.W.
Washington, DC 20530

Region Ten CSB
Lisa Beitz, Executive Director
500 Old Lynchburg Rd
Charlottesville, VA 22903

Daniel P. Bubar, Fed. DA
P.O. Box 1709
Lynchburg, VA 24008

Donald D. Long, Registered Agent
Feil, Pettit et.al.,
530 E Main Street #203
Charlottesville, VA 22903

U.S. Solicitor General
Dept, of Justice Room 5614
950 Pennsylvania Ave N.W.
Washington, DC 20530

Attorney for Secondary Respondent:
James A. Bowling, IV
416 Park Street
Charlottesville, VA 22903
MELVIN DINKINS

MELVIN DINKINS, PRO SE

123 4TH STREET N.W.

CHARLOTTESVILLE, VA 22902

Additional material
from this filing is
available in the
Clerk's Office.

